App A-1
VIRGINIA:

In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Wednesday the 9th day of December, 2020.
Jason Avery Anderson,
against

Petitioner,

Record No. 200155

Harold W. Clarke, Director
Of the Virginia Department of
Corrections,

Respondent.

Upon a Petition for a Writ of Habeas Corpus
Upon consideration of the petition for a writ of
habeas corpus filed January 27, 202, the rule to show
cause and the respondent’s motion to dismiss, the
Court is of the opinion that the motion should be
granted.
Pursuant to pleas of guilty, petitioner was convicted
in the Circuit Court of Powhatan County of four
counts of sodomy of a family member and four counts
of incest and was sentenced to eighty years’
imprisonment with seventy-five years suspended.
The offenses involved petitioner’s adopted daughter,
C.A., who reached the age of maturity before the
offenses occurred. Petitioner was indicted under
Code § 18.2-361 (B) (stating any person “who
performs or causes to be performed cunnilingus,
fellatio, anilingus, or anal intercourse upon or by his
daughter... is guilty of a Class 5 felony”), and under
Code § 18.2-366(B) (stating any person “who engages
in sexual intercourse with his daughter ... is guilty of
a Class 5 felony”). See also Code § 63.2-1215
(providing an adopted person “is the child of an

App A-2
adopting parent”). Petitioner did not appeal,1 and he
now challenges the legality of his confinement
pursuant to these convictions.
In portions of claims (a) and (b), petitioner contends
Code §§ 18.2-361 and -366 are unconstitutional, as
applied to petitioner, because the private sexual acts
with C.A. were consensual and neither statute
contains an exception for private sexual acts between
consenting adults. Petitioner argues private sexual
acts between consenting adults are protected under
the Due Process Clause of the Fourteenth
Amendment, as interpreted by Lawrence v. Texas,
539 U.S. 558 (2003), and MacDonald v. Moose, 710
F.3d 154 (4th Cir. 2013). Petitioner further argues
Virginia’s interest in prohibiting sexual relationships
between persons who are biologically related is not
implicated because petitioner and C.A. are not
biologically related. In support of his assertion that
the sexual acts with C.A. were consensual, petitioner
submits a sworn declaration from C.A. stating, in
part, petitioner did not “force” her to have sex with
him.
The Court holds these portions of claims (a) and (b)
are barred because a voluntary and intelligent guilty
plea waives all non-jurisdictional defenses
antecedent to a guilty plea. Peyton v. King, 210 Va.
194, 196-97 (1969); see United States v. Joos, 638
F.3d 581,586 (8th Cir.2011) (holding that “as
applied” constitutional challenges to statutes are
non-jurisdictional).
In other portions of claims (a) and (b), petitioner
contends applying Code §§ 18.2-361 and -366 to
1 Although petitioner stated a motion for a delayed
appeal was pending at the time he filed his petition a writ of
habeas corpus, it does not appear a direct appeal is pending in
the Court of Appeals of Virginia or in this Court. Petitioner’s
motion to vacate the criminal judgment as void is pending in
this Court.

App A-3
punish him for private, consensual sexual activity
with C.A. denied petitioner equal protection under
the law. Petitioner asserts other states permit
adoptive parents and their adult children to marry
each other and, therefore, have sexual intercourse
with one another. Petitioner argues punishing him
for the same types of sexual contact with his adopted,
adult daughter in Virginia violates the Equal
Protection Clause.
The Court holds these portions of claims (a) and (b)
are barred because a voluntary and intelligent guilty
plea waives all non-jurisdictional defenses
antecedent to a guilty plea. Peyton, 210 Va. at 19697.
In a portion of claim (c), petitioner contends he was
denied the effective assistance of counsel because
counsel failed to argue Code §§ 18.2-361 and -366 are
unconstitutional, as applied to petitioner’s conduct.
Petitioner argues it should have been “immediately
apparent” to a competent attorney that the conduct
for which petitioner was charged was protected
activity under Lawrence because petitioner and C.A.
were both adults, engaged in private, consensual
sexual acts. In support of this argument, petitioner
submits C.A.’s sworn declaration, which states C.A.
is petitioner’s adopted daughter, is twenty-seven
years old, and was age nineteen when she began
having a sexual relationship with petitioner. C.A.
explains she would “at times” initiate sexual contact
with petitioner and was never “forced” to have sex
with petitioner. C.A. further states she is “qualified
to testify” and “could and would competently testify
to the facts set forth herein.”
The Court holds this portion of claim (c) is barred.
The record, including the indictments and the
transcript of the guilty plea hearing, demonstrates
petitioner was indicted for five counts of sodomy of a
family member and five counts of incest. Petitioner
entered into a plea agreement, in which he agreed to
plead guilty to four counts of each offense and the

App A-4
Commonwealth agreed to move to withdraw by order
of nolle prosequi the remaining counts.
At the guilty plea hearing, petitioner acknowledged
he had discussed the charges and possible defenses
with counsel, was satisfied with counsel’s services,
decided to plead guilty voluntarily, and was, in fact,
guilty. The prosecutor proffered that, had the matter
gone to trial, the Commonwealth’s evidence would
have shown petitioner and his wife adopted C.A. in
December 2001, when C.A. was nine. In November
2018, petitioner admitted to his wife that he had
engaged in sexual intercourse with C.A. since she
was eighteen. A detective questioned petitioner at his
residence the next morning, and petitioner admitted
the sexual relationship, which C.A. later
corroborated. In addition, the prosecutor stated that
C.A. “suffers from pretty' significant cognitive and
developmental disorders,” and that petitioner told
police investigators C.A. “has the mentality of a nine
year old girl.”
Upon further inquiry from the court, petitioner
indicated he understood everything discussed during
the hearing and had no questions. The circuit court
accepted petitioner’s guilty pleas and found
petitioner guilty of the eight offenses specified in the
plea agreement. Petitioner has failed to offer a valid
reason why he should not be bound by his
representation at trial that he had discussed possible
defenses with counsel and that counsel’s performance
was adequate. Anderson v. Warden, 222 Va. 511, 516
(1981).
In another portion of claim (c), petitioner contends he
was denied the effective assistance of counsel
because counsel failed to raise an as-applied
challenge to the constitutionality of Code §§ 18.2-361
and -366 on appeal. Petitioner does not allege he
directed counsel to appeal the convictions on this or
any other basis.

App A-5
The Court holds this portion of claim (c) satisfies
neither the “performance” nor the “prejudice” prong
of the two-part test enunciated in Strickland.
Petitioner has failed to establish that he objectively
and timely demonstrated his intent to appeal, Miles
v. Sheriff, 266 Va. 110, 115 (2003), or that counsel
had the duty to consult petitioner about an appeal on
this or any other issue which he failed to perform.
Petitioner does not allege he demonstrated to counsel
that he was interested in appealing, nor has he
shown there was any basis for counsel to conclude a
rational defendant in petitioner’s situation would
want to appeal, for example because there were nonfrivolous grounds for appeal. See Roe v. FloresOrtega, 528 U.S. 470, 480 (2000) (explaining when
counsel has a duty to consult with a defendant about
an appeal). Indeed, as petitioner entered voluntary
and intelligent guilty pleas for offenses under Code
§§ 18.2-361 and -366, counsel could reasonably have
determined an as-applied appellate challenge to
those statutes’ constitutionality would have been
frivolous. See Trevathan v. Commonwealth, 297 Va.
697, 698 (2019) (stating a voluntary and intelligent
guilty plea is a waiver of all non- jurisdictional
defects that occurred before entry of the plea). Thus,
petitioner has failed to demonstrate that counsel’s
performance was deficient or that there is a
reasonable probability that, but for counsel’s alleged
errors, he would have appealed. See Miles, 266 Va. at
116 (on a claim that counsel was ineffective for
failing to appeal, prejudice may be proved by
showing that, but for counsel’s deficient performance,
petitioner would have appealed).
Accordingly, the petition is dismissed and the rule is
discharged.
Pursuant to pleas of guilty, petitioner was
convicted in the
A Copy,
Teste:

App A-6

Douglas B. Robelen, Clerk
By: (illegible signature)
Deputy Clerk

App B- 1
VIRGINIA:
IN THE SUPREME COURT OF VIRGINIA
Jason Avery Anderson, NO. 1993965, Petitioner,
against

Record No. 200155

Harold W. Clarke, Director
Of the Virginia Department of
Corrections,

Respondent.

Counsel
Dale Jensen
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

PETITION FOR WRIT OF HABEAS CORPUS

Petitioner Jason Avery Anderson (“Anderson”)
does not believe that the taking of evidence is
necessary for the proper disposition of the petition
pursuant to Virginia Supreme Court Rule 5:7(a)(2)).
A.

Criminal Trial

1

App B- 2
1.

Name and location of court which imposed the

sentence from which you seek relief: the Powhatan
County Circuit Court, Powhatan, VA
2.

The offense or offenses for which sentence was

imposed (include indictment number or numbers if
known):
a. Four counts of sodomy with a family
member under Va. Code Section 18.2361 – case numbers CR18000130-00,
CR18000130-01, CR18000130-02,
CR18000130-03;
b. Four counts of incest with own child
under Va. Code Section 18.2-366 – case
number CR18000130-05, CR1800013006, CR18000130-07, CR18000130-08.
3.

The date upon which sentence was imposed

and the terms of the sentence: On April 12, 2019
Anderson was sentenced by the Circuit Court to

2

App B- 3
eight ten (10) year sentences, one for each of the
charges with seventy-five years of those sentences
suspended for a total of five (5) years of
unsuspended prison time.
4.

Check which plea you made and whether trial

by jury: Anderson entered pleas of guilty for each of
the eight charges that he was convicted.
5.

The name and address of each attorney, if any,

who represented you at you criminal trial.
Anderson was represented by Gregory R. Sheldon,
Esquire, 9030 Three Chopt Road, Suite B,
Richmond, Virginia 23229.
6. Did you appeal the conviction? Anderson filed
a Motion for Delayed Appeal, which motion is
pending.
7. If you answered “yes” to 6, state: the result
and the date in your appeal or petition for

3

App B- 4
certiorari. There has not yet been a ruling on
the pending Motion for Delayed Appeal.
8. List the name and address of each attorney, if
any, who represented you on your appeal.
Anderson is represented in the pending
Motion for Delayed Appeal by Dale Jensen,
606 Bull Run, Staunton, VA 24401.

B.

Habeas Corpus
9. Before this petition did you file with respect to
this conviction any other petition for habeas
corpus in either a State or federal court? No.

10. If you answered “yes” to 9, list with respect to
each petition: the name and location of the
court in which each was filed: not applicable.

4

App B- 5
11. Did you appeal from the disposition of your
petition for habeas corpus? Not applicable.

12. If you answered “yes” to 11, state: the result
and the date of each petition: not applicable.

C.

Other Petitions, Motions or Applications

13. List all other petitions, motions or applications
filed with any court following a final order of
conviction and not set out in A or B. No other
petitions, motions, or applications have been
filed with any other court regarding this
conviction and sentence.

D.

Present Petition

5

App B- 6
14. State the grounds which make your detention
unlawful, including the facts on which you
intend to rely:
a. Anderson is being subjected to cruel and
unusual punishment in violation of the
Eighth Amendment to the United
States Constitution because he was
convicted and sentenced under Va. Code
Section 18.2-361, which was and is
unconstitutional under the Due Process
Clause of the Fourteenth Amendment to
the Constitution as applied to Anderson.
b. Anderson is being subjected to cruel
and unusual punishment in violation of
the Eighth Amendment to the United
States Constitution because he was
convicted and sentenced under Va. Code
Section 18.2-366, which was and is

6

App B- 7
unconstitutional under the Due Process
Clause of the Fourteenth Amendment to
the Constitution as applied to Anderson.
c. Anderson’s right to the effective
assistance of counsel, secured by the
Sixth Amendment to the United States
Constitution was violated when
Anderson’s trial counsel failed to
challenge the constitutionality of the
statutes under which Anderson was
convicted and sentenced.

15. List each ground set forth in 14, which has
been presented in any other proceeding: not
applicable. List the proceedings in which each
ground was raised: grounds a, and b have been
raised in the Motion for Delayed Appeal. It is
uncertain whether those grounds will be

7

App B- 8
considered in view of the Motion for Delayed
Appeal not having been granted as of yet.

16. If any ground set forth in 14 has not been
presented to a court, list each ground and the
reason why it was not: Grounds c was not
raised because ineffective assistance of counsel
cannot be raised on appeal.
RESPECTFULLY SUBMITTED,
By: (illegible signature)
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run
Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com
Counsel for Jason Avery Anderson

8

App B- 9
Signed, sealed and delivered in the presence of:
STATE OF VIRGINIA

)
)
)

COUNTY/CITY Sussex

The petitioner being first duly sworn, says:
1. He signed the foregoing petition;
2. The facts stated in the petition are true to the
best of his information and belief.
Executed on: January 16, 2020
(illegible signature)
Jason Avery Anderson, 1993965
Sussex I State Prison
24414 Musselwhite Dr.
Waverly, VA 23891
Subscribed and sworn before me this 16 day of
January 2020.
(illegible signature)
Notary Public
My term expires: 6.30.23

9

App B- 10
Certificate
The undersigned counsel certifies that the page
count for this Petition and Memorandum in Support
excluding appendices, exhibits, cover page, table of
contents, table of authorities, and certificate is 20.
Dated: January 27, 2020
By:

Dale Jensen
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run
Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

10

App G- 1
VIRGINIA:
IN THE SUPREME COURT OF VIRGINIA
Jason Avery Anderson, NO. 1993965, Petitioner,
against

Record No. 200155

Harold W. Clarke, Director
Of the Virginia Department of
Corrections,
Counsel
Dale Jensen
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run, Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

1
PETITION FOR APPEAL

Respondent.

App G- 2
TABLE OF CONTENTS
Page
I.
II.
III.
A.

Introduction ………………………..….……1
Statement of Facts…………………………2
Argument……………….….........................3
Anderson is being subjected to cruel and
unusual punishment in violation of the Eighth
Amendment to the United States Constitution
because he was convicted and sentenced under
Va. Code Section 18.2-361, which was and is
unconstitutional under the Due Process
Clause of the Fourteenth Amendment to the
Constitution as applied to Anderson
………………………………………………..5
B. Anderson is being subjected to cruel and
unusual punishment in violation of the Eighth
Amendment to the United States Constitution
because he was convicted and sentenced under
Va. Code Section 18.2-366, which was and is
unconstitutional under the Due Process
Clause of the Fourteenth Amendment to the
Constitution as applied to Anderson
………………………………………………10
C. Anderson’s right to the effective assistance of
counsel, secured by the Sixth Amendment to
the United States Constitution was violated
when Anderson’s trial counsel failed to
challenge the constitutionality of the statutes
under which Anderson was convicted and
sentenced …………………………………11
V.
Conclusion…………………………………14
Exhibits
Exhibit A, Caitlin Anderson Declaration ……..

2
PETITION FOR APPEAL

App G- 3
TABLE OF AUTHORITIES
Page
Case Law
Lafler v. Cooper. 132 S.Ct. 1376 (2012) …….11, 12
Lawrence v. Texas, 539 U.S. 558, 123 S. Ct. 2472
(2003)…………………………… 3, 4, 6-9, 11-13
MacDonald v. Moose, 710 F.3d 154 (4th Cir. 2013)..3
Obergefell v. Hodges, 135 S. Ct. 2584 (2015)….4, 11
Planned Parenthood of Southeastern Pa. v. Casey,
505 U.S. 833, 120 L. Ed. 2d 674, 112 S. Ct.
2791 (1992)……………………………………..7-9
Strickland v. Washington, 466 U.S. 668 (1984) 11, 12

United States Constitution
U.S. Const., Amend. VI………………………… 1, 11
U.S. Const., Amend. VIII…………………….. 1, 5, 10
U.S. Const., Amend. XIV………………………... 5, 10

3
PETITION FOR APPEAL

App G- 4
Virginia Statutory Law
Va. Code § 18.2-361…………………………. passim
Va. Code § 18.2-366…………………………. passim

4
PETITION FOR APPEAL

App G- 5

MEMORANDUM OF LAW IN
SUPPORT OF PETITION FOR WRIT OF
HABEAS CORPUS
Comes now the Defendant, Jason Avery
Anderson (“Anderson”), by counsel, presents this
Memorandum in Support of his Memorandum for
Writ of Habeas Corpus (the “Petition”); and in
support of the Petition states:

I.

Introduction

The Petition should be granted because of
numerous violations of Anderson’s rights under the
United States Constitution.
Anderson is being subjected to cruel and
unusual punishment in violation of the Eighth
Amendment to the United States Constitution

5
PETITION FOR APPEAL

App G- 6
because he was convicted and sentenced under Va.
Code Sections 18.2-361 and 18.2-366, each of which
was and is unconstitutional as applied to Anderson.
In addition, Anderson’s right to the effective
assistance of counsel, secured by the Sixth
Amendment to the United States Constitution was
violated when Anderson’s trial counsel failed to
challenge the constitutionality of the
aforementioned statutes under which Anderson was
convicted and sentenced.
Because of the violations of Anderson’s rights,
this Petition should be granted.
II.

STATEMENT OF FACTS
At all relevant times both Anderson and C.A.

were adults.
Caitlin Elizabeth Anderson (“Caitlin”) is the
adult adopted daughter of Anderson. Anderson and
C.A. are not biologically related.

6
PETITION FOR APPEAL

App G- 7
When Caitlin was a nineteen year-old adult,
she began having a sexual relationship with
Anderson. Caitlin Declaration at ¶ 3. At times
Caitlin would to things to get Anderson to have sex
with her. Caitlin Declaration at ¶ 5. Anderson never
forced Caitlin to have sex with him. Caitlin
Declaration at ¶ 6.
On December 11, 2018 Anderson was indicted
on five counts of sodomy with a family member
under Va. Code Section 18.2-361 and five counts of
incest with own child under Va. Code Section 18.2366. On February 8, 2019 Anderson entered guilty
pleas to four counts of sodomy with a family
member under Va. Code Section 18.2-361 and four
counts of incest with own child under Va. Code
Section 18.2-366. Orders of nolle prosequi were
entered on the other two counts pursuant to a plea
agreement. On April 12, 2019 Anderson was

7
PETITION FOR APPEAL

App G- 8
sentenced to ten (10) years for each of the eight
counts with all but five years of the sentences
suspended.

III.

ARGUMENT

In Lawrence v. Texas, the Supreme Court
plainly held that statutes criminalizing private acts
of consensual sodomy between adults are
inconsistent with the protections of liberty assured
by the Due Process Clause of the Fourteenth
Amendment. MacDonald v. Moose, 710 F.3d 154,
163 (4th Cir. 2013) (citing Lawrence v. Texas, 539
U.S. 558, 578, 123 S. Ct. 2472, 2484 (2003)).
The Virginia statutes at issue in this case as
applied against Anderson in this case are
unconstitutional in view of Lawrence and

8
PETITION FOR APPEAL

App G- 9
MacDonald. The acts of Anderson and C.A. were
consensual acts between adults with the
protections of liberty assured by the Due Process
Clause of the Fourteenth Amendment. Id.
Accordingly, the statutes at issue in this case were
applied unconstitutionally against Anderson.

Lawrence, 539 U.S. at 578, 123 S. Ct. at 2484.
Because Anderson and Caitlin are not
biologically related, even if the Commonwealth had
an interest in sexual unions based upon biology (a
premise that Anderson contests), increased risks of
birth defects from consanguinity simply did not
exist in this case.
Although most states and provinces of the
United States have laws against incest in some
form, many consider unions between adults that
are not biologically related legal. Those states and
provinces include, Alaska, California, Michigan,

9
PETITION FOR APPEAL

App G- 10
Minnesota, Mississippi, Nevada, New Jersey, New
York, North Dakota, Northern Mariana Islands,
Oklahoma, Oregon, United States Virgin Islands,
and Washington.
The need for declaring the statutes at issue
in this case unconstitutional is readily apparent
from the states in which such unions are legal. For
example, a father and adopted daughter that are
not biologically related can be legally married in
Alaska, but if that same couple that had legally
married in Alaska were to subsequently move to
Virginia, that same couple could be criminally
convicted and incarcerated. Such a result is in clear
violation of the equal protection provisions of the
Fourteenth Amendment. See, Lawrence in view of

Obergefell v. Hodges, 135 S. Ct. 2584 (2015).
Many other countries in the world consider
unions between consenting adults legal regardless

10
PETITION FOR APPEAL

App G- 11
of family relationships, adopted or otherwise. The
list of countries that consider such unions legal
include Argentina, Belgium, Brazil, France, India,
Israel, Ivory Coast, Japan, Latvia, Lithuania,
Luxembourg, Netherlands, Portugal, Russia,
Serbia, Slovenia, South Korea, Spain, Thailand,
and Turkey.
Other countries consider unions between
adults that are not biologically related legal. Those
countries include Canada, Ethiopia, and Taiwan.

A. Anderson is being subjected to cruel and
unusual punishment in violation of the
Eighth Amendment to the United States
Constitution because he was convicted
and sentenced under Va. Code Section
18.2-361, which was and is
unconstitutional under the Due Process

11
PETITION FOR APPEAL

App G- 12
Clause of the Fourteenth Amendment to
the Constitution as applied to Anderson
In pertinent part Va. Code § 18.2-361 states:
Any person who performs or causes to
be performed cunnilingus, fellatio,
anilingus, or anal intercourse upon or
by his daughter or granddaughter, son
or grandson, brother or sister, or father
or mother is guilty of a Class 5 felony …
For the purposes of this section, parent
includes step-parent, grandparent
includes step-grandparent, child
includes step-child, and grandchild
includes step-grandchild.
The plain language of Va. Code § 18.2-361
provides no exception for cases such as that of
Anderson where both Anderson and Caitlin were
consenting adults. The unconstitutionality is
particularly pronounced in this case because
Anderson and Caitlin were not biologically related.
The analysis from Lawrence is binding and
dispositive as to the unconstitutionality of Va. Code
§ 18.2-361 as it applies to Anderson.

12
PETITION FOR APPEAL

App G- 13
As held in Lawrence:
Liberty protects the person from
unwarranted government intrusions
into a dwelling or other private places.
In our tradition the State is not
omnipresent in the home. And there are
other spheres of our lives and existence,
outside the home, where the State
should not be a dominant presence.
Freedom extends beyond spatial
bounds. Liberty presumes an autonomy
of self that includes freedom of thought,
belief, expression, and certain intimate
conduct. The instant case involves
liberty of the person both in its spatial
and more transcendent dimensions.
539 U.S. at 562, 123 S. Ct. at 2475.
Here, Anderson was subjected to
unwarranted government intrusions into his home
solely to regulate his sexual activities with another
consenting adult. Such an intrusion violated
Anderson’s autonomy of self that includes freedom
of thought, belief, expression, and his intimate
conduct with another consenting adult.
As with the Petitioners in Lawrence, both

13
PETITION FOR APPEAL

App G- 14
Anderson and Caitlin were adults at the relevant
time of the alleged offenses. As with the Petitioners
in Lawrence, their conduct was private and
consensual.
In invalidating a Texas sodomy statute as
unconstitutional, the Lawrence Court acknowledged
that adults may choose to enter upon relationships
in the confines of their homes and their own private
lives and still retain their dignity as free persons.

Lawrence, 539 U.S. at 567, 123 S. Ct. at 2478.
Anderson is entitled to that same right to choose a
relationship with another consenting adult within
the confines of his own home and still retain his
dignity as a free person. When sexuality finds overt
expression in intimate conduct with another person,
the conduct can be but one element in a personal
bond that is more enduring. The liberty protected by
the Constitution allows persons the right to make

14
PETITION FOR APPEAL

App G- 15
such choices. Id. Anderson had the right to make
such choices with Caitlin and Va. Code § 18.2-361 is
unconstitutional as it applies to the conduct for
which he was convicted.
In Planned Parenthood of Southeastern

Pa. v. Casey, 505 U.S. 833, 120 L. Ed. 2d 674, 112 S.
Ct. 2791 (1992), the Court reaffirmed the
substantive force of the liberty protected by the Due
Process Clause. The Casey decision confirmed that
the laws and traditions of the United States afford
constitutional protection to personal decisions
relating to marriage, procreation, contraception,
family relationships, child rearing, and
education. Id., at 851, 120 L Ed 2d 674, 112 S Ct
2791. Anderson was and is entitled to constitutional
protection in his personal decisions relating to
procreation. In explaining the respect the
Constitution demands for the autonomy of the

15
PETITION FOR APPEAL

App G- 16
person in making these choices, the Court stated as
follows:
These matters, involving the most
intimate and personal choices a person
may make in a lifetime, choices central
to personal dignity and autonomy, are
central to the liberty protected by
the Fourteenth Amendment. At the
heart of liberty is the right to define
one's own concept of existence, of
meaning, of the universe, and of the
mystery of human life. Beliefs about
these matters could not define the
attributes of personhood were they
formed under compulsion of the State.
Ibid.
This case is legally indistinguishable for

Lawrence. As held in Lawrence (emphasis added):
The present case does not involve
minors. It does not involve persons
who might be injured or coerced or who
are situated in relationships where
consent might not easily be refused. It
does not involve public conduct or
prostitution. It does not involve
whether the government must give
formal recognition to any relationship
that homosexual persons seek to enter.
The case does involve two adults who,
with full and mutual consent from each
other, engaged in sexual practices

16

PETITION FOR APPEAL

App G- 17
common to a homosexual lifestyle. The
petitioners are entitled to respect
for their private lives. The State
cannot demean their existence or
control their destiny by making
their private sexual conduct a
crime. Their right to liberty under
the Due Process Clause gives
them the full right to engage in
their conduct without
intervention of the government.
“It is a promise of the
Constitution that there is a realm
of personal liberty which the
government may not
enter.” Casey, supra, at 847, 120 L Ed
2d 674, 112 S Ct 2791. The Texas
statute furthers no legitimate state
interest which can justify its intrusion
into the personal and private life of the
individual.
539 U.S. at 578, 123 S. Ct. at 2484.
In this case, Anderson has been charged,
convicted, and incarcerated for consensual conduct
that did not involve minors. It did not involve a
minor or anyone who was in a relationship in which
consent was not easily refused. Indeed, when Caitlin
decided to end the relationship with Anderson, she

17
PETITION FOR APPEAL

App G- 18
was very able to do so. This case does not involve
public conduct or prostitution. Just as in Lawrence,
this case does involve two adults who, with full and
mutual consent from each other, engaged in
common sexual practices. Anderson is entitled to
respect for his private life. The Virginia statute
furthers no legitimate state interest that can justify
its intrusion into the personal and private life of
consenting adults such as Anderson and Caitlin.
Because Va. Code § 18.2-361 contains no
exception for consensual act between adults in the
privacy of their own homes, that statute is
unconstitutional as applied in Anderson’s case,
pursuant to Lawrence, and should be declared as
such.

B. Anderson is being subjected to cruel and

18
PETITION FOR APPEAL

App G- 19
unusual punishment in violation of the
Eighth Amendment to the United States
Constitution because he was convicted
and sentenced under Va. Code Section
18.2-366, which was and is
unconstitutional under the Due Process
Clause of the Fourteenth Amendment to
the Constitution as applied to Anderson
In pertinent part Va. Code § 18.2-366 states:
Any person who commits adultery or
fornication with his daughter or
granddaughter, or with her son or
grandson, or her father or his mother,
shall be guilty of a Class 5 felony … For
the purposes of this section, parent
includes step-parent, grandparent
includes step-grandparent, child
includes a step-child, and grandchild
includes a step-grandchild.
The plain language of Va. Code § 18.2-366
provides no exception for cases such as that of
Anderson where both Anderson and Caitlin were

19
PETITION FOR APPEAL

App G- 20
consenting adults. The unconstitutionality is also
particularly pronounced in this case because
Anderson and Caitlin were not biologically related.
Anderson incorporates by reference all
arguments previously advanced concerning Va.
Code § 18.2-361. All of those arguments apply
directly to the unconstitutionality of Va. Code §
18.2-366 as well.
Because Va. Code § 18.2-366 contains no
exception for consensual act between adults in the
privacy of their own homes, for analogous reasons to
those advanced concerning Va. Code § 18.2-361, Va.
Code § 18.2-366 is also unconstitutional pursuant to

Lawrence and Obergefell and should be declared as
such.

C. Anderson’s right to the effective
assistance of counsel, secured by the

20
PETITION FOR APPEAL

App G- 21
Sixth Amendment to the United States
Constitution was violated when
Anderson’s trial counsel failed to
challenge the constitutionality of the
statutes under which Anderson was
convicted and sentenced
A convicted defendant’s claim that counsel’s
assistance was so defective as to require reversal of
a conviction has two components. Strickland v.

Washington, 466 U.S. 668, 687 (1984). First, the
defendant must show that counsel’s performance
was deficient. Id. This requires showing that
counsel made errors so serious that counsel was not
functioning as the “counsel” guaranteed the
defendant by the Sixth Amendment. Id. Second, the
defendant must show that the deficient performance
prejudiced the defense. Id.
The performance prong of Strickland requires

21
PETITION FOR APPEAL

App G- 22
a defendant to show that counsel’s representation
fell below an objective standard of reasonableness.

Lafler v. Cooper, 132 S. Ct. 1376, 1384 (2012).
The second prong of the Strickland test is
often referred to as the prejudice prong under which
a petitioner is required to show that there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different. In making this
determination, a Court hearing an ineffectiveness
claim must consider the totality of the evidence
before the judge or jury. Strickland, 466 U.S. at 695.
In this case, it should have been immediately
apparent to constitutionally competent counsel that
the acts for which Anderson was charged were
sexual acts between consenting adults. As such, it
should have been readily apparent that the holdings
of Lawrence were implicated.

22
PETITION FOR APPEAL

App G- 23
There is no objectively reasonable
justification pursuant to Lafler for Anderson’s trial
counsel not challenging the constitutionality of Va.
Code § 18.2-361 or Va. Code § 18.2-366 prior to
Anderson’s pleas, convictions, and sentencing such
that those issues would be formally preserved for
appeal.
Likewise, there is no objectively defensible
reason pursuant to Lafler why an appeal was not
advanced challenging the constitutionality of Va.
Code § 18.2-361 or Va. Code § 18.2-366.
Because of these failings, no challenge to the
constitutionality of Va. Code § 18.2-361 or Va. Code
§ 18.2-366 has been reviewed by any court prior to
the submission of the accompanying Petition.
Anderson’s trial counsel failed to advance any
argument challenging the constitutionality of either
Va. Code § 18.2-361 or Va. Code § 18.2-366 as those

23
PETITION FOR APPEAL

App G- 24
statutes apply to consenting adults, such as
Anderson in his cases. Because there was no such
challenge, the issue was not properly preserved for
appeal. Also, no appeal was advanced in Anderson’s
case challenging the constitutionality of Va. Code §
18.2-361 and Va. Code § 18.2-366 as applied to
consenting adults.
Had the constitutionality of Va. Code § 18.2361 and Va. Code § 18.2-366 been challenged as
applied to Anderson, it is likely that Anderson would
never have been convicted or incarcerated. Both Va.
Code § 18.2-361 and Va. Code § 18.2-366 as applied
in this case unconstitutionally criminalize conduct
that is within the rubric of Lawrence and it is likely
that any objectively reasonable judge would have
dismissed the charges against Anderson on that
basis.
IV.

Conclusion

24
PETITION FOR APPEAL

App G- 25

For all of the reasons discussed herein,
Anderson respectfully and humbly requests that this
Court grant his Petition, overturn Anderson’s
convictions, and order Anderson’s immediate release.
RESPECTFULLY SUBMITTED,
By: (signature illegible)
Dale Jensen
Counsel
Dale R. Jensen (VSB 71109)
Dale Jensen, PLC
606 Bull Run,
Staunton, VA 24401
(434) 249-3874
(866) 372-0348 facsimile
djensen@dalejensenlaw.com

25
PETITION FOR APPEAL

App G- 26

Certificate of Service

I hereby certify that the original of the foregoing
was, on this 27th day of January, 2020, I directed
service to the following:
Harold W. Clarke
Director of the Virginia Department of Corrections
P.O. Box 26963
Richmond, VA 23261-6963
Mark Herring
Office of the Attorney General
900 East Main Street
Richmond, VA 23219
Dated: January 27, 2020
Respectfully Submitted,
(signature illegible)
Dale R. Jensen
Counsel for Jason Avery Anderson

26
PETITION FOR APPEAL

App D- 1
VIRGINIA:
IN THE SUPREME COURT OF VIRGINIA
Jason Avery Anderson, NO. 1993965, Petitioner,
against

Record No. 200155

Harold W. Clarke, Director
Of the Virginia Department of
Corrections,

Respondent.

MOTION TO DISMISS
The respondent, by counsel, moves this Court
to dismiss the petition for a writ of habeas corpus. In
support of this motion, the respondent says as
follows:

1.

Petitioner,

Jason

Avery

Anderson,

#1993965, is an inmate in the lawful custody of the
Virginia Department of Corrections (“VDOC”) and is
currently confined at Sussex I State Prison pursuant
to a final order of the Powhatan County Circuit
Court entered on April 15, 2019. (April 15, 2019
Sentencing Order).1 On February 8, 2019, the
1

As there are no discernible page numbers in the record

1

App D- 2
petitioner entered guilty pleas to four counts of
sodomy with a family member, in violation of Code §
18.2-361, and four counts of incest with a family
member, in violation of Code § 18.2-366. (February 8,
2019 Trial Order). The court sentenced petitioner to
eighty years’ imprisonment with seventy-five years
suspended. (Sentencing Order).
Petitioner

2.

did

not

appeal

his

convictions.
H ISTORY

3.

OF THE

C ASE

On February 8, 2019, petitioner entered

guilty pleas to four counts of sodomy with a family
member

and

four

counts

of

incest.

The

filed by counsel for petitioner, respondent refers to the
identifying information that will most help this Court
identify which document he refers to; generally, the date
and nature of the document.

2

App D- 3
Commonwealth made a motion to nolle prosequi two
indictments, one charging another count of sodomy
with a family member and the other charging
another

count

of

incest.

(February

8,

2019

Transcript, Trial Order). This was in accordance with
an agreement with the Commonwealth, although
there

was

no

agreement

as

to

sentencing.

(Transcript, 8). Subsequent to the entry of these
pleas, the Commonwealth moved to dismiss a
warrant alleging one count of rape of the same
victim, C.A., which was also pending at the time of
the entry of the pleas. The rape charge was
dismissed by agreed order. (Respondent’s Exhibit 1,
Counsel Affidavit, I).2

4.

The

Commonwealth

2

proffered

Respondent submits the affidavit of trial counsel,
Gregory R. Sheldon, in accordance with Va. Code §
8.01-660.

3

a

App D- 4
summary of the evidence that would have been
introduced at trial which was sufficient to find
petitioner guilty of all eight offenses. (Transcript, 812). The petitioner and counsel accepted the proffer
and did not offer any supplementation. (Id., 12).

5.

Petitioner affirmed on the record that

he had reviewed the charges with his attorney,
understood all the charges against him, discussed
with his attorney what the Commonwealth would
have to prove in order to convict him and any
possible defenses he might have had, discussed with
his attorney how he should plead, and decided on his
own to voluntarily plead guilty, because he was, in
fact, guilty. (Id., 5-6).

6.

Petitioner

also

responded

in

the

affirmative when asked if he was entirely satisfied
with his attorney’s work on the case. (Id., 7).

4

App D- 5

7.
the

court

At the conclusion of the plea colloquy,
accepted

the

agreement

and

found

petitioner guilty of all charges. (Id., 13). The case was
continued so that a presentence report could be
prepared.

8.

At the sentencing hearing on April 12,

2019, the court sentenced petitioner to ten

years’

incarceration on each conviction for a total of eighty
years, with all but five years suspended. (Sentencing
Order).
Present Petition

9.

On

or

about

January

27,

2020,

petitioner timely filed the instant habeas petition
attacking the validity of his convictions by asserting
the following claims:

I. Petitioner is being subjected to cruel and
unusual punishment in violation of the Eighth
Amendment to the United States Constitution

5

App D- 6
because he was convicted and sentenced under
Va. Code § 18.2-361, which was and is
unconstitutional under the Due Process
Clause of the Fourteenth Amendment to the
Constitution as applied to Petitioner.
II. Petitioner is being subjected to cruel and
unusual punishment in violation of the
Eighth Amendment to the United States
Constitution because he was convicted and
sentenced under Va. Code § 18.2-366, which
was and is unconstitutional under the Due
Process Clause of the Fourteenth Amendment
to the Constitution as applied to Petitioner.
III. Petitioner’s right to the effective
assistance of counsel under the Sixth
Amendment was violated when trial counsel
failed to challenge the constitutionality of the
statutes under which Anderson was convicted
and sentenced.
Non-Cognizable Claims

10.

At the outset, claims I and II are not

cognizable in habeas, as they could have been
properly raised in other proceedings.
It is well settled that the deprivation of a
constitutional right of a prisoner may be
raised by habeas corpus. But in the interest of
the finality of judgments and since the original
function of the writ of habeas corpus was to
provide an inquiry into jurisdictional defects,
we hold that [a prisoner cannot raise a

6

App D- 7
constitutional question in habeas] when [that]
prisoner has been afforded a fair and full
opportunity to raise and have adjudicated the
question ... in his trial and upon appeal.

Slayton v. Parrigan, 215 Va. 27, 29, 205 S.E.2d 680,
682 (1974).

11.

As petitioner admits in making his

ineffective assistance claim, trial counsel could have
challenged the constitutionality of the statutes
petitioner was convicted under in the trial court and
on appeal. (Petitioner’s Memorandum of Law in
Support, 12-13). Petitioner is “not entitled to use
habeas corpus to circumvent the trial and appellate
processes for an inquiry into an alleged nonjurisdictional defect of a judgment of conviction.”

Slayton, at 29, 205 S.E.2d at 682.

Accordingly,

claims I and II should be dismissed pursuant to

Slayton.

12.

Additionally,

7

to

the

extent

that

App D- 8
petitioner has raised or is currently raising claims I
and II in a delayed appeal,3 that further serves to
bar those claims under Henry v. Warden, 265 Va.
246, 576 S.E.2d 495 (2003). A prisoner cannot relitigate issues already decided through the appellate
process: “[A] non- jurisdictional issue raised and
decided either in the trial court or on direct appeal
from the criminal conviction will not be considered in
a habeas corpus proceeding.” Henry, at 249, 576
S.E.2d at 496. Thus, petitioner’s raising of them in a
delayed appeal bars claims I and II in the current
petition.
Ineffective Assistance of Counsel

13.

Petitioner next alleges that he was

Petitioner concedes that he has filed a “Motion for
Delayed Appeal” in which he raises claims I and II,
but represents that “there has not yet been a ruling .
. .” (Petition, 2).
3

8

App D- 9
denied the effective assistance of counsel by counsel’s
failure to challenge the constitutionality of the two
statutes petitioner was convicted under. However,
petitioner’s claim fails as his underlying premise,
that the statutes are unconstitutional, is fallacious.
Accordingly, the rest of his argument falls apart and
he cannot overcome the high bar of either prong of

Strickland.
Standard of Review
To prevail on a claim of ineffective

14.

assistance, a habeas petitioner must satisfy the twopart test set forth in Strickland v. Washington, 466
U.S. 668 (1984). Specifically, the burden is on the
petitioner to prove both deficient performance by his
counsel

and

prejudice

due

to

the

deficient

performance. See Id., at 687. “Unless [petitioner]
establishes both prongs of the two-part test, his

9

App D- 10
claims of ineffective assistance of counsel will fail.”

Jerman v. Director of the Dept, of Corrections, 267
Va. 432, 438, 593 S.E.2d 255, 258 (2004); see also

Harrington v. Richter, 562 U.S. 86, 110-12 (2011).

15.

To satisfy Strickland's performance

prong, “the defendant must show that ... counsel
made errors so serious that counsel was not
functioning as the ‘counsel’ guaranteed the defendant
by the Sixth Amendment.” Strickland, 466 U.S. at
687; Bowles v. Nance, 236 Va. 310, 374 S.E.2d 19
(1988). “The proper measure of attorney performance
remains simply reasonableness under prevailing
professional norms.” Strickland, 466 U.S. at 688. “In
determining whether an attorney’s performance in a
given

case

meets

the

‘reasonable

competence’

standard, a court should make every effort ‘to
eliminate the distorting effects of hindsight and to

10

App D- 11
evaluate the conduct from counsel’s perspective at
the time.’” Virginia Dept, of Corrections v. Clark, 227
Va. 525, 534, 318 S.E.2d 399, 403 (1984) (quoting

Strickland, 466 U.S. at 689). Stated differently, there
is no presumption of deficient performance; rather, in
evaluating claims of ineffective assistance, the
reviewing court “must indulge a strong presumption”
that counsel rendered effective assistance. Knowles

v. Mirzayance, 556 U.S. Ill, 124 (2009) (quoting
Strickland, 466 U.S. at 689).

16.

Where a petitioner has pleaded guilty,

the second prong of the Strickland test is slightly
modified. Petitioner must plead and prove that there
is a reasonable probability that, but for counsel’s
alleged errors, he would have pleaded not guilty and
would have instead insisted on going to trial. Hill v.

Lockhart, 474 U.S. 52, 58-59 (1985); Fields v. Taylor,

11

App D- 12
956 F.2d 1290, 1297 (4th Cir. 1992). “The answer to
that question [in the plea context] must be reached
through an objective analysis.” Wolford v. United

States, 722 F. Supp. 2d 664, 690, (E.D.Va. 2010)
(quoting Hooper v. Garraghty, 845 F.2d 471, 475 (4th
Cir. 1988)). In order to obtain relief, a petitioner
must convince the Court that a decision to reject a
plea agreement would have been rational under the
circumstances. Padilla v. Kentucky, 559 U.S. 356,
371 (2010). In guilty plea cases, “the ‘prejudice’
inquiry will closely resemble the inquiry engaged in
by courts reviewing ineffective-assistance challenges
to convictions obtained through a trial.” Hill, 474
U.S. at 59-60.

17.

Furthermore, strict adherence to the

Strickland standard is “all the more essential when
reviewing the choices an attorney made at the plea

12

App D- 13
bargain stage.” Premo v. Moore, 562 U.S. 115, 125
(2011). “The plea process brings to the criminal
justice system a stability and a certainty that must
not be undermined by the prospect of collateral
challenges in cases not only where witnesses and
evidence have disappeared, but also in cases where
witnesses and evidence were not presented in the
first place.” Id., at 132.
Analysis of Ineffective Counsel Claim

18.

At the outset, as to his ineffective

assistance of counsel claims, petitioner is bound by
his statements at trial concerning the adequacy of
his counsel and the voluntariness of his plea. See

Anderson v. Warden, 222 Va. 511, 516, 281 S.E.2d
885, 888 (1981). See also Beck v. Angelone, 261 F.3d
377, 396 (4th Cir. 2001). The purpose of a colloquy on
the record by a trial court regarding a defendant’s

13

App D- 14
guilty plea “is to forestall ‘the spin-off of collateral
proceedings’ that delay the finality of convictions in
criminal cases.” Anderson, 222 Va. at 515, 281 S.E.2d
at 888 (quoting Boykin v. Alabama, 395 U.S. 238,
244 (1969)). “[A] convict may question by habeas
corpus the adequacy of counsel and the voluntariness
of a guilty plea only when he alleges and proves a
valid reason why he should be permitted to disavow
his prior, contrary declarations made at the trial.”

Id., at 516, 281 S.E.2dat888.

19.

Petitioner affirmed on the record that

he had been over the charges with his attorney,
understood all the charges against him, discussed
with his attorney what the Commonwealth would
have to prove in order to convict him as well as any
possible defenses he might have had, discussed with
his attorney how he should plead, and decided on his

14

App D- 15
own to voluntarily plead guilty, because he was, in
fact, guilty. (Transcript, 5-6). Petitioner further
responded in the affirmative when asked if he was
entirely satisfied with his attorney’s work on the
case. (Id., 7). Accordingly, petitioner’s statements to
the court about counsel belie his present claim of
dissatisfaction with his attorney’s performance, and
he has offered no valid reason he should be allowed
to controvert those statements in the present
proceeding. Anderson, 222 Va. at 516, 281 S.E.2d at
888. For these reasons, petitioner cannot meet either
prong of the demanding Strickland test and his
ineffective assistance of counsel claims must be
dismissed.

20.

Additionally,

petitioner

has

not

satisfied the high bar of Strickland. In regards to the
first prong, deficient performance, petitioner cannot

15

App D- 16
show

that

counsel’s

failure

to

challenge

the

constitutionality of the statutes petitioner was
convicted under fell below a general standard of
attorney reasonableness, as counsel is not ineffective
for failing to pursue a meritless argument. Morva v.

Warden of the Sussex I State Prison, 285 Va. 511,
524, 741 S.E.2d 781, 791, (2013). See also Moody v.

Polk, 408 F.3d 141, 151 (2005) (citing Murray v.
Maggio, 736 F.2d 279, 283 (5th Cir. 1984) (counsel
not required to engage in filing of futile motions));

Washington v. Murray, 952 F.2d 1472, 1481 (4th Cir.
1991) (no ineffective assistance where counsel failed
to

object

to

admissible

evidence);

Correll

v.

Commonwealth, 232 Va. 454, 252 S.E.2d 352 (1987)
(counsel not ineffective for failing to make meritless
objection).

21.

Petitioner’s

proposed

16

argument

is

App D- 17
meritless, as the two statutes at issue are not
unconstitutional as applied to the facts of this case.
At the outset, petitioner fails to satisfy the high
burden required to show that the statutes in this
case were unconstitutional. “The party challenging
an enactment has the burden of proving that the
statute is unconstitutional, and every reasonable
doubt regarding the constitutionality of a legislative
enactment must be resolved in favor of its validity.”

Vesilind v. Virginia State Bd. of Elections, 295 Va.
427, 444 (2018). “All legislative acts are ‘presumed to
be constitutional.’” Boyd v. Cty. of Henrico, 42 Va.
App. 495, 506 (2004) (en banc) (quoting In re

Phillips, 265 Va. 81, 85 (2003)). “This presumption is
‘one of the strongest known to the law.’” Id. at 507

(quoting Harrison v. Day, 200 Va. 764, 770 (1959)).

22.

Petitioner argues that the current

17

App D- 18
statutes infringe on the liberty interests outlined in

Lawrence v. Texas, 539 U.S. 558 (2003), namely, the
right of non-biologically related consenting4 adults to
engage in private sexual relationships. However, the
current case contains one fact that differentiates it
from Lawrence, which petitioner glosses over: In this
case the two individuals were parent and adopted
child, unlike the two individuals in Lawrence.

23.

In Virginia, an adopted child is legally

identical to a biological child. See Va. Code § 63.21215 (“Any child adopted under the provisions of this
chapter shall ... be, to all intents and purposes, the
child of the person or persons so adopting him. ... An
4

Petitioner fails to mention the fact that C.A. suffered
“significant cognitive and developmental disorders” and
“had the mentality of a nine year old girl.” (Transcript,
10). Counsel’s affidavit also contains further findings
regarding C.A.’s mental capabilities. (Affidavit, 3-4).
Thus, the record and counsel’s affidavit appear to
indicate the victim was incapable of consenting.

18

App D- 19
adopted person is the child of an adopting parent …).
Accordingly, the fact that C.A. was not biologically
related to petitioner, which petitioner mentions
repeatedly in his argument, is irrelevant.

24.

C.A.’s status as petitioner’s adopted

child is fatal to his as-applied unconstitutional
claims. The state has a legitimate interest in
criminalizing sexual relationships between a person
and that person’s adult, non-biologically related
adopted child, as this kind of relationship is of the
type which was specifically excluded by Lawrence:
One where a party “might be injured or coerced” or
“where consent might not easily be refused.” See

Lawrence, 539 U.S. at 578. See also Ferguson v.
Commonwealth, 71 Va. App. 546, 838 S.E.2d 75

19

App D- 20
(2020).5 In Ferguson, the appellant advanced a
similar claim, that § 18.2-366 was unconstitutional
pursuant to Lawrence when it criminalized “sexual
relations between adults not related by blood.”6 Id.,
at 546, 838 S.E.2d 75. The Court of Appeals held that
the statute was not unconstitutional because the
appellant had no protected liberty interest in
engaging in a sexual relationship with his stepdaughter despite the fact that they were not related
by blood, as this was still the type of relationship
where the risk of coercion or improper influence was
5

Although Ferguson only dealt with Va. Code § 18.2366, its analysis is pertinent to the challenge made to §
18.2-361 in the current petition.
6
The Court of Appeals assumed without deciding that
the statute covered the conduct at issue in the case, as
the parties had done so in their arguments to the trial
court and their arguments on appeal, although the
concurrences in that case sow some doubt as to whether
or not the statutes would apply at all to an individual’s
consensual sexual relationship with their adult stepchild.

20

App D- 21
high.

Additionally,

the

Court

found

that

the

Commonwealth has an interest in protecting the
family from the harm caused by intrafamily sexual
relationships.

25.

However, in the current case, as

petitioner was C.A.’s adopted father, not just her
step-parent, the concerns outlined in Ferguson are
even more strongly implicated. Petitioner was C.A.’s
legal parent and had been so for almost twenty years
starting when she was eight or nine years old, thus
petitioner held a position of immense power and
influence over her so that their relationship dynamic
was very different than that of two unrelated adults.
(Transcript, 9-10). Further, the petitioner’s conduct
with C.A. caused the harms that the statutes are
meant to prevent. The father of the family was
convicted of eight felonies and jailed for five years

21

App D- 22
and thus will not be present for at least five years, in
addition to other certain damage to the family unit
that the record does not reflect. Accordingly, the two
statutes at issue in this case are not unconstitutional
as applied to petitioner. Thus, it was not deficient
performance for trial counsel to not raise that issue
to the trial court or preserve it for appeal, as it would
have not succeeded, and counsel is not ineffective for
failing to raise losing arguments.

26.

Nor does petitioner does point to any

case law or other authority which shows that Va.
Code § 18.2-361 or § 18.2-366 have been held
unconstitutional in similar circumstances such that
trial counsel should have raised the issue. In fact,
counsel had deep familiarity with the issues in this
case, as he was trial counsel for the case which
culminated in MacDonald v. Moose, 710 F.3d 154

22

App D- 23
(4th Cir. 2013) , and was appellate counsel in

Saunders v. Commonwealth, 62 Va. App. 793, 753
S.E.2d 602 (2014)7

8.

(Affidavit, 2). Accordingly,

counsel has conducted “great deals of research” about
the statutes involved in this case, had considered
such a challenge, and “ultimately deem[ed] that it
would not be successful and would likely ensure that

7

This case involved convictions for sexual intercourse
and sodomy of a minor in violation of Va. Code § 18.2361. See McDonald v. Commonwealth, 274 Va. 249,
645 S.E.2d 918 (2007).
8
This case involved a collateral attack on a conviction
under Va. Code § 18.2-361 of having sexual intercourse
with a minor. The Court of Appeals found that, as this
Court had determined that the portions of § 18.2-361
which criminalized an adult engaging in sexual
intercourse with a minor were not unconstitutional in
McDonald v. Commonwealth, 274 Va. 249, 645 S.E.2d
918 (2007), the underlying conviction was not void and
could not be collaterally attacked. This Court
subsequently affirmed the decision of the Court of
Appeals for the reasons stated in that court’s opinion as
well as this Court’s decision in Toghill v.
Commonwealth, 289 Va. 220, 768 S.E.2d 674, (2015),
which was decided the same day.

23

App D- 24
[petitioner] would be prosecuted for the original rape
charge.” (Affidavit, 2). Petitioner has not established
how this was an erroneous conclusion.

27.

Indeed,

Strickland

requires

that

counsel’s “strategic choices must be respected in
these circumstances if they are based on professional
judgment.” Strickland, 466 at 681. The “strategic
choices

made

[by

counsel]

after

thorough

investigation of law and facts relevant to plausible
options are virtually unchallengeable.” Id., at 690.
Nor should counsel be penalized for “failing to bring
novel or long-shot contentions.” United States v.

Mason, 774 F.3d 824, 830 (4th Cir. 2014). See, e.g.,
United States v. McNamara, 74 F.3d 514, 516 (4th
Cir. 1996) (novel claims); see also Pruett v.

Thompson, 996 F.2d 1560, 1568 (4th Cir. 1993) (longshot

claims).

Indeed,

it

24

can

be

“positively

App D- 25
detrimental” to a client’s case to raise every objection
and argument conceivable at trial and press every
contention possible on appeal. Mason, at 516. In fact,
“[w]innowing out weaker arguments on appeal and
focusing on those more likely to prevail... is the
hallmark of effective appellate advocacy.” Smith v.

Murray, 477 U.S. 527, 536 (1986).

28.

Accordingly, petitioner has not shown

deficient performance on the part of trial counsel,
and thus necessarily cannot satisfy both necessary
prongs

of

Strickland. The petition should be

dismissed solely on the preceding argument.

29.

However, even if the court finds that

petitioner has established deficient performance,
petitioner cannot meet the second requirement of

Strickland as modified by Hill, as he has not
demonstrated that there is an objectively “reasonable

25

App D- 26
probability that, but for counsel’s unprofessional
errors, he would have pleaded not guilty and would
have instead insisted on going to trial.” Hill, 474 U.S.
at 58-59.

30.

Petitioner has not established that he

stood a reasonable probability of a better result had
the case gone to trial such that it would have been
objectively rational to choose to do so. Initially,
petitioner faced a potential sentence of up to life plus
one hundred years in prison on the charges he was
confronted with. After his plea, he faced eighty
years.9

Furthermore,

as

shown

earlier,

any

arguments about the unconstitutionality of the two
statues would have been unavailing. In addition, the
9

Trial counsel believes that if petitioner had contested
the charges, the Commonwealth would not have moved
to dismiss the rape charge, thus petitioner would also
have been facing a life sentence on the rape charge.
(Affidavit, 4).

26

App D- 27
Commonwealth’s evidence was strong, as petitioner
confessed to the crimes multiple times to multiple
individuals and wrote a letter to his wife detailing
the illegal conduct. (Transcript, 9, 12). The likelihood
that petitioner would have been found not guilty of
any of the charges, including the rape charge, was
exceedingly low due to his lack of credible defenses,
nor has petitioner alleged any upon which he stood a
reasonable

chance

of

success

in

his

petition.

Therefore, he likely would have been convicted of
three more charges had he proceeded to trial and
faced even more potential jail time.

31.

Petitioner also benefitted by being

sentenced by a judge, rather than a jury, after his
plea, and trial counsel believes that a jury would
have “impose[d] a sentence of much greater than the
five years he received based upon two factors: (1) he

27

App D- 28
was a police officer at the time this happened; and (2)
he was a pastor at a church at the time this
happened.” (Affidavit, 4).

32.

Accordingly,

petitioner

has

not

satisfied the second prong of Strickland by showing it
would have been objectively reasonable to plead not
guilty and proceed to trial. Thus, petitioner’s
ineffective assistance claim fails to satisfy Strickland
as a whole. Claim III should be dismissed.

33.

Each

and

every

allegation

not

expressly admitted by the respondent should be
taken as denied.

34.

Petitioner’s claims can be resolved on

the basis of the record without the need for an
evidentiary hearing. See Code § 8.01-654(B)(4);

Friedline v. Commonwealth, 265 Va. 273, 576 S.E.2d
491 (2003); Yeatts v. Murray, 249 Va. 285, 455

28

App D- 29
S.E.2d 18 (1995); Arey v. Peyton, 209 Va. 370, 164
S.E.2d 691 (1968).
WHEREFORE, the respondent prays that this
Court deny and dismiss the habeas corpus petition.
RESPECTFULLY SUBMITTED,
HAROLD W. CLARKE,
DIRECTOR OF THE
DEPARTMENT OF
CORRECTIONS,
Respondent herein
By: (illegible signature)
Mason D. Williams
Assistant Attorney General
Virginia State Bar No. 92608
OFFICE OF THE ATTORNEY
GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-9642 Phone
(804) 371-0151 Fax

29

App D- 30

CERTIFICATE OF SERVICE
On March 27, 2020, a copy of this Motion to Dismiss
with the accompanying affidavit of trial counsel was
mailed to: Dale R. Jensen, Esq., 606 Bull Run
Staunton, VA 24401, counsel for petitioner
(illegible signature)
Mason D. Williams
Assistant Attorney General

30

App E-1
VIRGINIA COURT OF APPEALS
COMMONWEALTH OF
VIRGINIA,

COURT OF
APPEALS NO. _____

VS.

CIRCUIT COURT
NO. CR18000130-00
through
CR18000130-03 and
CR18000130-05
through
CR18000130-08

Record No. 200155

JASON AVERY ANDERSON,

DECLARATION IN
SUPPORT OF
PETITION FOR
APPEAL

DECLARATION OF CAITLIN ELIZABETH
ANDERSON IN SUPPORT OF
PETITION FOR APPEAL
I, Caitlin Elizabeth Anderson, make this
Declaration in support of the Petition for Appeal of
Jason Avery Anderson. This Declaration is based
upon my personal knowledge, unless otherwise
stated, and I am qualified to testify to the facts
related herein. If called as a witness, I could and
would competently testify to the facts set forth
herein. I declare as follows:

App E-2
1.

I am the adopted daughter of the

defendant in the above styled case, Jason Avery
Anderson.
2.

I am now 27 years old.

3.

When I was 19 I began having a sexual

relationship with Jason Avery Anderson.
4.

I requested three or four times to come to

court to support my mom but I was denied by
Gretchen Brown.
5.

At times I would do things to get Jason

Avery Anderson to have sex with me.
6.

Jason Avery Anderson never forced me to

have sex with him.
7.

I am doing really will now.

8.

I live independently in an apartment of

my own.
9.

I am in a relationship with a boyfriend.

App E-3
I hereby declare that the above statements are
true to the best of my knowledge and belief and that
I understand they are made for use as evidence in
court and are subject to penalty for perjury.
Executed on: September __, 2019
Signed “Caitlin E. Anderson”
Caitlin Elizabeth Anderson

